NO:

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021
GABRIEL MARTINEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I certify that on August 26, 2021, in accordance with the Court’s April 15, 2020,
and July 19, 2021, Orders regarding the filing of documents, a single copy of the (1)
Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In Forma Pauperis, (3)
Certificate of Service, and (4) Declaration Verifying Timely Filing, was deposited with
a third party commercial carrier for delivery to the Court within three calendar days.
A copy of the same was served upon the Solicitor General of the United States, Room
5614, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, D.C.
20530-0001, and via e-mail at SupremeCtBriefs@usdoj.gov.
MICHAEL CARUSO
Federal Public Defender
By:
Miami, Florida
August 26, 2021

/s/ Kate Taylor
Kate Taylor
Assistant Federal Public Defender
150 West Flagler Street, Suite 1700
Miami, FL 33130
305-530-7000

